                            CLOSEOUT FOR M-93080042




       OIG examined the complainant's letters, the program officer's infon-nation, the Phase I
and Phase I1 proposals, the Phase I final report. and sonie co-authored publications resulting
from the Phase I collaboration. OIG also contacted the complainant for additional infomiation.

        The cornplainant alleged that a colleague, who was on sabbatical and visiting her
laboratory for a year, approached the subject with the idea for the Phase I proposal because the
proposed idea required the use of some equipment which was not available in the Laboratory,
but was available at the subject's company. The complainant indicated that the subject, with
their assistance, completed the Phase I proposal which was subsequently funded by NSF. After
the subject submitted the final report for the Phase I award and at tlie subject's request, the
complainant sent him six suggestions for possible inclusion with a Phase I1 proposal. According
to the complainant, both consultants hoped that they could do more research with tile subject as
equal partners under a Pliase I1 award.

        OIG determined that the six suggestions sent by the complainant to the subject for
inclusion into the Phase I1 proposal were very general in nature and, as a consequence, could
not be identified in the proposal as ideas unique to the cotnplainant. In addition, OIG
determined that with respect to the particular suggestions: two originated in the Phase I proposal
or the final report for the project: three followed logically as a continuation of the work
accomplished' under the Phase I award and as such coi~ldnot be itniquely identified as the
conlplainant's; and one could not be found in the Phase I1 proposal as an idea for research or
study, but rather appeared only in the discussion under "Related Research."

       In addition, OIG discenled that this situation involved a ~nisunderstandingbetween the
complainant and tlie subject. The complainant had assumed that their collaboration would
continue with Phase 11 because she and her co-worker had been involved with Phase I. The

                                          Page 1 of 2                                     M93-42
                            CLOSEOUT FOR M-93080042
subject, on the other hand, elected to continue the project in his Phase 11 proposal by
collaborating with scientists other than the complainant and her co-worker. Although the subject
could have shown more consideration for the cosnplainant by informing her of his plan to
exclude her as a collaborator in the Phase 11proposal, he was under no formal obligation to do
so. Likewise, the subject was not obliged to continue the collaborative relationship with the
complainant on future proposals just because his research was a continuation of their earlier
collaborative work. He clearly described the complainant's participation with the Phase I work
in his Phase Il proposal including their co-authored Phase I published results.

       OIG determined that there was no substance to the allegation of intellectual theft. This
case was closed.

cc: Staff Scientist, Deputy AIG-Oversight, AIG-Oversight, Counsel to IG, IG




                                         Page 2 of 2
